                                               OFFICE OF INSPECTOR GENERAL
                                                                       MEMORANDUM




DATE:          December 6, 2005

TO:            Chairman

FROM:          Inspector General

SUBJECT:       Report on the Audit of the Commission's Continuity of Operations Program

The Office of Inspector General (OIG) has completed an Audit of Commission's Continuity of
Operations Program (COOP). A copy of our Audit Report, titled “Audit of the Commission's
Continuity of Operations Program” (Audit Report No. 04-AUD-09-17) is attached. The
objective of this audit was to assess adequacy of the FCC’s COOP and report upon its progress.
The scope of this audit encompassed a review of FCC’s COOP. This included a review of the
COOP of the Universal Service Administrative Company (USAC). The results of the USAC
COOP audit were the subject of a separate report. The Pinnacle exercise was also excluded from
this audit and was the subject of a separate report.

To accomplish the objectives of this audit, we engaged Job Performance Systems, Inc. (JPS).
Under our supervision, the JPS audit team interviewed staff, reviewed documentation, and
performed other tests deemed necessary. Finally, JPS compared the Commission’s COOP to
authorities and best practices, and reviewed prior tests of the Commission’s COOP. JPS also
evaluated COOP activities at FCC facilities at Gettysburg, PA and Columbia, MD.

During the audit we noted several positive observations relating to the Commission’s COOP.
Those observations include:

           –   The FCC conducted a successful COOP test in 2004.
           –   The High Frequency Directional Finder Center (HFDFC) has a backup site.

Overall, considerable effort has been exercised in development of the COOP program.

While we noted these positive findings, we did identify six (6) conditions for improvement. Five
(5) related to the FCC COOP. The details of these findings can be found in Appendix A,
Detailed Findings & Recommendations. One (1) finding related to USAC’s COOP. The USAC
finding will be reported in the separate report on the results of the audit of the USAC COOP.
